TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      Final Voucher Audit Contract Number
                                TIRNO-95-D-00061,
                           Delivery Order Number 0002



                                         September 2005

                             Reference Number: 2005-1C-180




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Web Site          | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 29, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE


 FROM:                       Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

 SUBJECT:                    Final Voucher Audit Contract Number TIRNO-95-D-00061, Delivery
                             Order Number 0002 (Audit # 20051C0246)

 The Defense Contract Audit Agency (DCAA) examined the contractor’s final voucher
 number 18, issued under contract number TIRNO-95-D-00061, delivery order number 0002
 (formerly task order 2206). The purpose of the examination was to determine the allowable cost
 and fee under the contract delivery order. According to the DCAA, this cost-plus-fixed fee
 contract provided for Enforcement Revenue Information Systems Quality Systems Testing.
 Work commenced on June 19, 1996, and was completed on May 16, 1997.
 The DCAA stated final voucher number 18 issued under the contract delivery order is acceptable
 for processing. The claimed costs for Fiscal Years 1996, 1997, and 1998 represent costs that are
 considered allowable under the contract and, therefore, are reimbursable. The DCAA also stated
 that the contractor’s accounting and billing systems are generally considered adequate to ensure
 final vouchers are based on allowable cost and fee data. There are no outstanding internal
 control deficiencies affecting these systems.
 The information in this report should not be used for purposes other than those intended without
 prior consultation with the Treasury Inspector General for Tax Administration regarding their
 applicability.
 If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
 (202) 927-7077.


 Attachment
                                    NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the contracting officer, to duly authorized representatives
of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.
